<html>
<title> - PUBLIC HOUSING REDEVELOPMENT STRATEGIES: IMPLICATIONS FOR JORDAN DOWNS, ITS COMMUNITY, AND RESIDENTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                PUBLIC HOUSING REDEVELOPMENT STRATEGIES:
                     IMPLICATIONS FOR JORDAN DOWNS,
                      ITS COMMUNITY, AND RESIDENTS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2008

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 110-101





                        U.S. GOVERNMENT PRINTING OFFICE

41-732                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001








                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            DEBORAH PRYCE, Ohio
CAROLYN B. MALONEY, New York         MICHAEL N. CASTLE, Delaware
LUIS V. GUTIERREZ, Illinois          PETER T. KING, New York
NYDIA M. VELAZQUEZ, New York         EDWARD R. ROYCE, California
MELVIN L. WATT, North Carolina       FRANK D. LUCAS, Oklahoma
GARY L. ACKERMAN, New York           RON PAUL, Texas
BRAD SHERMAN, California             STEVEN C. LaTOURETTE, Ohio
GREGORY W. MEEKS, New York           DONALD A. MANZULLO, Illinois
DENNIS MOORE, Kansas                 WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
RUBEN HINOJOSA, Texas                JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              CHRISTOPHER SHAYS, Connecticut
CAROLYN McCARTHY, New York           GARY G. MILLER, California
JOE BACA, California                 SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
BRAD MILLER, North Carolina          TOM FEENEY, Florida
DAVID SCOTT, Georgia                 JEB HENSARLING, Texas
AL GREEN, Texas                      SCOTT GARRETT, New Jersey
EMANUEL CLEAVER, Missouri            GINNY BROWN-WAITE, Florida
MELISSA L. BEAN, Illinois            J. GRESHAM BARRETT, South Carolina
GWEN MOORE, Wisconsin,               JIM GERLACH, Pennsylvania
LINCOLN DAVIS, Tennessee             STEVAN PEARCE, New Mexico
PAUL W. HODES, New Hampshire         RANDY NEUGEBAUER, Texas
KEITH ELLISON, Minnesota             TOM PRICE, Georgia
RON KLEIN, Florida                   GEOFF DAVIS, Kentucky
TIM MAHONEY, Florida                 PATRICK T. McHENRY, North Carolina
CHARLES A. WILSON, Ohio              JOHN CAMPBELL, California
ED PERLMUTTER, Colorado              ADAM PUTNAM, Florida
CHRISTOPHER S. MURPHY, Connecticut   MICHELE BACHMANN, Minnesota
JOE DONNELLY, Indiana                PETER J. ROSKAM, Illinois
ROBERT WEXLER, Florida               THADDEUS G. McCOTTER, Michigan
JIM MARSHALL, Georgia                KEVIN McCARTHY, California
DAN BOREN, Oklahoma                  DEAN HELLER, Nevada

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
EMANUEL CLEAVER, Missouri            STEVAN PEARCE, New Mexico
AL GREEN, Texas                      PETER T. KING, New York
WM. LACY CLAY, Missouri              JUDY BIGGERT, Illinois
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
GWEN MOORE, Wisconsin,               GARY G. MILLER, California
KEITH ELLISON, Minnesota             SCOTT GARRETT, New Jersey
CHARLES A. WILSON, Ohio              RANDY NEUGEBAUER, Texas
CHRISTOPHER S. MURPHY, Connecticut   GEOFF DAVIS, Kentucky
JOE DONNELLY, Indiana                JOHN CAMPBELL, California
                                     THADDEUS G. McCOTTER, Michigan
                                     KEVIN McCARTHY, California




























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    March 15, 2008...............................................     1
Appendix:
    March 15, 2008...............................................    33

                               WITNESSES
                        Saturday, March 15, 2008

Blom, Dominique, Deputy Assistant Secretary, Office of Public 
  Housing Investments, U.S. Department of Housing and Urban 
  Development....................................................     4
Broomfield, Henry, Chair, Watts Neighborhood Council.............    21
Brown, Eric, Economic Development Director for Watts, Office of 
  Councilwoman Janice Hahn, Council District 15..................     8
Henderson, Keith, Business Manager, Jordan Downs Resident 
  Management Corporation.........................................    19
Hisserich, Helmi A., Deputy Mayor of Housing and Economic 
  Development Policy, Office of the Mayor, City of Los Angeles...     6
Jones, Marlo, Resident, Jordan Downs Housing Development.........    20
Montiel, Rudolf C., President and CEO, Housing Authority of the 
  City of Los Angeles............................................    10
Neal, Oscar, Chair, Watts-Willowbrook Chamber of Commerce........    22
Pope, Reverend Reginald A., Pastor, Bethel Missionary Baptist 
  Church.........................................................    18

                                APPENDIX

Prepared statements:
    Blom, Dominique..............................................    34
    Broomfield, Henry............................................    38
    Brown, Eric (Janice Hahn)....................................    40
    Henderson, Keith.............................................    42
    Hisserich, Helmi A...........................................    44
    Jones, Marlo.................................................    49
    Montiel, Rudolf C............................................    50
    Neal, Oscar..................................................    55
    Pope, Reverend Reginald A....................................    56

























 
                      PUBLIC HOUSING REDEVELOPMENT
                        STRATEGIES: IMPLICATIONS
                         FOR JORDAN DOWNS, ITS
                        COMMUNITY, AND RESIDENTS

                              ----------                              


                        Saturday, March 15, 2008

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 11 a.m., at 
Jordan Downs Recreation Center, 9900 Grape Street, Los Angeles, 
California, Hon. Maxine Waters [chairwoman of the subcommittee] 
presiding.
    Present: Representative Waters
    Also present: Representative Richardson.
    Chairwoman Waters. I would like to ask all of those in the 
back to take their seats. This hearing of the Subcommittee on 
Housing and Community Opportunity will come to order.
    I would like to say good morning to everyone and thank you 
all for taking time on a busy Saturday to come here and be with 
us in the gymnasium today to explore a lot of the rumors that 
have been taking place.
    I would like to not only thank you for being here, but I 
would like to thank all of the volunteers of the resident 
council who work to make sure that Jordan is connected to our 
Los Angeles Housing Authority and that you are getting the 
resources that you need and that you are basically helping to 
maintain the upkeep of this community.
    I have been in this gym many times over the past 20 or 30 
years or so and we do not normally have a formal hearing; 
usually we have town hall meetings or we are meeting around a 
crisis. Today this is a formal hearing of the Subcommittee on 
Housing and Community Opportunity of the Committee on Financial 
Services of the Congress of the United States of America, and 
it is being recorded because we believe that it is important 
for all of us to be on the record about what we are doing, 
where we are going, and to understand what the facts are about 
possible or potential development here at Jordan Downs and 
perhaps the rest of South Los Angeles.
    One of the reasons I wanted to hold this hearing today was 
because we have been through rumors in this community before. 
Over the years, the rumors have been rampant about what was 
going to happen at Jordan Downs, who was going to be relocated, 
and what kind of development was going to take the place of 
what we know as Jordan Downs today. We have seen those rumors 
cause a lot of people to act in ways that they thought would 
protect them from being dislocated.
    I can recall one year when the rumors were rampant. Some 
young people coming to my office to say, ``Ms. Waters, we do 
not intend to allow anybody to put our grandmothers out. We do 
not intend to allow anybody to create homelessness. We do not 
intend to let anybody take our community.'' So remembering the 
concerns of many of our residents from yesteryear, I think it 
is important to get the facts to understand what it is and what 
it is not so that is why we are here today.
    Having said that, we have a number of Members who wanted to 
be with us today but could not be here. We have some Members 
who are right here in California, but they are holding the 
caucuses for the Democratic party endorsements today. All of us 
who run in these various offices in the State of California, 
and in the United States Congress, have to go before delegates 
and they have to decide whether or not we are going to be 
officially endorsed by the party, so many of them could not be 
here because of that.
    We will be joined a little bit later by one of our newest 
Members of Congress, Congresswoman Laura Richardson, who is in 
the district adjacent to this, so we work very closely 
together. While I represent Jordan Downs, she represents 
Nickerson Gardens, the other big housing development at 
Imperial Courts to the south of us. She will join me as she 
leaves her caucus today to participate in this hearing.
    I want you to know that all over the country, the future of 
public housing development is being discussed. Many of you know 
that I have been very much involved in what is going on in the 
Gulf Coast. I have been very much involved in what is happening 
to public housing tenants, in New Orleans in particular, but 
also in Mississippi.
    As you know, it is no secret that I was very concerned that 
the public housing units in New Orleans were boarded-up after 
Hurricane Katrina and people were given Section 8 vouchers. 
Some are in FEMA trailers still; some are in still in Houston, 
Texas; Austin, Texas; Atlanta, Georgia; and other places. The 
units are still boarded-up and now HUD has decided that they 
are going to demolish most of those units in New Orleans, 
including the big ones that you know about, La Fete and St. 
Bernard. These housing units are coming down.
    One of the things I have said to HUD authorities and to Mr. 
Montiel here at our own City Housing Authority and one of the 
things we have placed into law as we have passed HOPE VI 
legislation is that if there is redevelopment in any of our 
public housing developments, there must be one-for-one 
replacement.
    There must also be phased redevelopment so that people 
don't get lost and they don't come up with relocation schemes 
and we don't know what happens to residents. I want to share 
that with you because I, along with the chairman of the full 
Financial Services Committee, Chairman Barney Frank, and others 
are focused on public housing development. We intend and we are 
putting into law more resident involvement. I know that hurts 
the ears of some people but we believe in resident involvement.
    We believe again in one-for-one replacement if development 
ever takes place, and we believe that there must be phased 
redevelopment so people don't get lost in relocations. Also, 
some of the basic beliefs that we have been working with in the 
Congress of the United States.
    Today, in addition to the work we have done on HOPE VI, we 
are focused on Jordan Downs because of the rumors. There have 
been some town hall meetings that have been held here. There 
have been rumors about developers that have been contracted 
with. There have been rumors about the kind of development that 
would take place if, in fact, there is redevelopment. All kinds 
of rumors.
    I have said to Mr. Montiel, who is the housing authority 
director, that there will never be any development that takes 
place in secret. There will never be anything that begins in 
the dark of night. There should never be any attempt to get a 
plan together without the people who live in Jordan Downs being 
involved in the development of any plan that takes place.
    Mr. Montiel agrees with me and, of course, I threaten him 
every time I see him and he understands. He is a willing 
participant here today because he is going to tell us 
everything that he knows about any discussion about development 
here at Jordan Downs. He may also want to talk about other 
developments a bit in South Los Angeles.
    With that, we will begin our hearing. I am going to call on 
our first panel. Let me introduce the entire panel: Ms. 
Dominique Blom, Deputy Assistant Secretary, Office of Public 
Housing Investments, U.S. Department of Housing and Urban 
Development; Ms. Helmi Hisserich, deputy mayor for housing and 
economic development policy, Office of the Mayor, City of Los 
Angeles; Mr. Rudy Montiel, executive director, Housing 
Authority of the City of Los Angeles; and Mr. Eric Brown, 
economic development director for Watts, Office of Councilwoman 
Janice Hahn, Council District 15.
    That is our first panel and we will start with Ms. 
Dominique Blom. Thank you for being here.
    Hold on one moment. For the people in the back of the room, 
please come forward. There are seats up here and we have to be 
careful because of the bounce-back in the auditorium. When you 
are speaking in the back, it bounces and it disturbs the 
speaker and we can't really hear what they are saying, and that 
is important. We want to know what everybody is saying today. 
We want to understand them clearly.
    With that, please come forward. We have some seats up here. 
Do we need some more chairs? Can we get some more chairs 
brought in? Where is Mr. Mikael Moore? I would ask Mr. Edgar 
Saenz. I see that April is in the back. Let us get some more 
chairs so that everybody can be seated. I know that we have 
more chairs in this building. Let us just bring them up so that 
everybody can get comfortable.
    I am so pleased to see the participation that we are seeing 
and I want the chairs to be brought in to accommodate everybody 
who is here. Will you point to the seats so people can come and 
take them? All right. We have people with their hands up where 
there are chairs. Please come in. I would like April to go back 
to the office and find out if there are more chairs in the 
building somewhere. Would you ask if they have even more 
folding chairs they can bring in? They can bring them down 
front. We have lots of chairs over here to my left. Come right 
in.
    Excuse me, Ms. Blom. We will start in just a moment. Let us 
get everybody settled.
    While they are getting seated, I would like all of my 
witnesses here to know that without objection, your written 
statements will be made a part of the record, and each of you 
will be recognized for 5 minutes. You don't have to read your 
testimony; you can give us a summary if you would like. You 
certainly may read it, but I am going to ask you to keep it 
within 5 minutes.
    Mr. Greg Brown, do you want to take a seat up here with us? 
Thank you, Edgar. Hello, Ms. Day. How are you doing? Even 
though my eyes are not that good, I can see you. Okay. We are 
doing pretty good. We only have a few more people standing in 
the back. Come right down front. Right down front. We have 
plenty of chairs over here to my left. Hello, Mr. King. How are 
you doing? Good to see you. There are interpreters in the back 
there. Thank you. How are you doing? Good to see you. Come 
right down front. Come right down. We have some chairs right 
over here for you. As I understand it, Mr. Rudy Montiel's 
testimony is in Spanish. It has been transcribed.
    Mr. Montiel. My testimony was transcribed.
    Chairwoman Waters. And it is at the table to be passed out?
    Mr. Montiel. I understand that is the case.
    Chairwoman Waters. Okay. Staff, I would like to ask our 
translators to announce that Mr. Rudy Montiel's testimony is in 
Spanish at the table so that they can get a copy and follow it 
also along with him as he testifies. I guess they can do it 
that way.
    All right. We are going to begin again, and I am going to 
ask Ms. Dominique Blom, the Deputy Assistant Secretary for the 
Office of Public Housing Investments, U.S. Department of 
Housing and Urban Development, to begin her testimony. Thank 
you.

STATEMENT OF DOMINIQUE BLOM, DEPUTY ASSISTANT SECRETARY, OFFICE 
 OF PUBLIC HOUSING INVESTMENTS, U.S. DEPARTMENT OF HOUSING AND 
                       URBAN DEVELOPMENT

    Ms. Blom. Thank you very much. Good morning, Chairwoman 
Waters. I am Dominique Blom, the Deputy Assistant Secretary for 
the Office of Public Housing Investments at the U.S. Department 
of Housing and Urban Development.
    Thank you very much for inviting me to testify today. Over 
the last 15 years, the HOPE VI Program has provided funding for 
the revitalization of distressed public housing developments. 
While the HOPE VI Program represents a significant investment 
in these communities, the Program is not available or 
appropriate for all public housing revitalization efforts.
    The four most significant funding alternatives to the HOPE 
VI revitalization program operated by the Department are: HOPE 
VI demolition grants; the Mixed-Finance Public Housing Program; 
the Capital Fund Financing Program; and the Public Housing 
Mortgage Program.
    HOPE VI demolition grants provide housing authorities with 
resources to raze distressed developments and relocate 
families. The result is a cleared site that more readily 
attracts resources for the revitalization of the project. These 
grants are an especially important resource for housing 
authorities that do not have a HOPE VI revitalization grant, 
but do have access to other funding sources.
    Since 1996, HUD has provided over $395 million in 
demolition funds across 127 public housing agencies. In the 
case of the Dana Strand site here in Los Angeles, the Housing 
Authority applied several times for a HOPE VI revitalization 
grant but did not receive HOPE VI funding. However, the Agency 
was awarded $3.2 million in demolition grant funds in 2001. 
Demolition was completed in 2003 and the cleared site attracted 
approximately $54 million in redevelopment funding which was 
used to build 236 public housing and tax credit units for low-
income families.
    The Mixed-Finance Public Housing Program, which was used to 
redevelop Dana Strand, allows HUD and Housing Authorities to 
mix public and private funds to develop and operate housing 
developments. Since 2004, public housing agencies have used 
this program to construct over 12,000 units of public and other 
affordable housing across 121 projects spending $670 million in 
Federal public housing funds and $1.4 billion in leverage 
resources.
    The third alternative program available through the 
Department to redevelop public housing is the Capital Fund 
Financing Program. This program allows public housing agencies 
to borrow from banks or issue bonds using their Capital Fund 
grants for debt service. Public housing agencies are able to 
leverage up to one-third of their Capital Funds to complete 
modernization or redevelopment of distressed public housing 
developments. As of December 31, 2007, HUD has approved 106 
transactions in which 186 public housing agencies are 
participating. The total amount of loan and bond financing 
approved across these projects exceeds $3 billion.
    For example, in California, the Oxnard and Santa Clara 
housing authorities raised over $10 million in bond financing. 
More recently, the Kern County Housing Authority undertook a 
direct loan in excess of $6 million using the Program.
    In addition to these resources, HUD recently established 
the Public Housing Mortgage Program. This program allows public 
housing agencies to borrow funds for affordable housing 
purposes by providing a mortgage on public housing real estate. 
The most recently approved transaction under this program 
allowed the Tacoma Housing Authority to mortgage public housing 
land to facilitate a $16 million bridge loan for infrastructure 
development. This investment was combined with additional funds 
that will ultimately yield over 360 affordable homeownership 
and rental units.
    The primary reasons for housing agencies to pursue these 
alternative funding sources are the scarcity of HOPE VI 
redevelopment funds, the planning costs and the time involved 
in submitting a HOPE VI revitalization application, and the 
belief that the project may not be competitive for HOPE VI 
funding.
    Although these alternative funding sources do not provide 
dedicated resources for Community and Supportive Services, the 
Department operates several programs that public housing 
authorities can draw on to support these activities, such as 
the Resident Opportunities and Self-Sufficiency Grant Program 
and the Family Self-Sufficiency Program. Moreover, resident and 
community involvement is a required component across each of 
the funding streams I have discussed.
    Despite the smaller scale of non-HOPE VI revitalization 
projects, the spillover impacts on the surrounding neighborhood 
are similar to those documented under the HOPE VI Program. 
These efforts tend to result in higher quality housing, a lower 
crime rate, and increased property values and business 
development in the surrounding neighborhood.
    Thank you for the opportunity to discuss the non-HOPE VI 
revitalization programs operated by HUD. We believe the 
programs I have outlined today are invaluable resources to 
public housing agencies in their efforts to improve the quality 
and quantity of affordable housing in their communities. I am 
happy to respond to any questions that you may have.
    [The prepared statement of Ms. Blom can be found on page 34 
of the appendix.]
    Chairwoman Waters. Thank you very much.
    Next we will hear from Ms. Helmi Hisserich. Would you 
please pronounce your last name to make sure we are saying it 
correctly.

 STATEMENT OF HELMI A. HISSERICH, DEPUTY MAYOR OF HOUSING AND 
 ECONOMIC DEVELOPMENT POLICY, OFFICE OF THE MAYOR, CITY OF LOS 
                            ANGELES

    Ms. Hisserich. Thank you. Good morning, Chairwoman Waters. 
My name is Helmi Hisserich.
    Chairwoman Waters. Hisserich. Thank you very much.
    Ms. Hisserich. Yes. I am the deputy mayor for housing and 
economic development policy in the administration of Mayor 
Villaraigosa. In the interest of time, I will summarize my 
comments and provide my written testimony; it is in the back of 
the room.
    One of my primary responsibilities as Deputy Mayor is to 
ensure that the City agencies that are working on housing are 
working together not only on broad citywide housing goals, but 
also on specific strategic actions. I would like to first talk 
a little bit about the housing crisis in Los Angeles and what 
we are confronting, and then I will spend a few minutes 
discussing how redevelopment of public housing fits into the 
overall plan.
    I want to thank you for the hearing today because this is 
an important opportunity to consider redevelopment of public 
housing and also to clear up confusion surrounding the 
discussion of public housing in Jordan Downs.
    Los Angeles is in the midst of a housing crisis that is 
among the worst in the country. Last July, Forbes.com ranked 
Los Angeles the number one least affordable housing market in 
the United States based on a study that compared housing prices 
to incomes. Last August, the Center for Housing Policy ranked 
Los Angeles No. 1 out of 31 metropolitan areas nationwide as 
having the greatest percentage of working households spending 
more than half of their income on housing.
    Last September, the Los Angeles Home and Services Authority 
updated the City's homeless count and found Los Angeles has the 
Nation's largest homeless population, with over 40,000 unhoused 
people. According to the census, an estimated 25 percent of Los 
Angeles households live in severely overcrowded conditions that 
are equivalent to five people living together in a one bedroom 
apartment.
    Current rental vacancy rates in Los Angeles are at an all-
time low. They are below 5 percent, and in some parts of the 
City, rental vacancy rates are as low as 2 percent. In other 
words, Los Angeles is fully occupied. Now, due to the 
foreclosure crisis and the tightening of the credit market, 
more pressure is being put on LA's already full rental housing 
market and rents throughout Los Angeles are going up.
    One of the reasons Los Angeles is in this crisis is because 
the City has not built enough housing to meet the needs of the 
population. In order to keep pace with population growth, the 
City should be adding approximately 13,000 units of new housing 
every year. However, in the past 17 years, Los Angeles has only 
met that number twice, in 2006 and 2007.
    For many years, Los Angeles has produced far fewer units 
than it needs. Not only has Los Angeles not built enough 
housing, the housing that has been built has been at prices few 
people can afford. If we are to address the real housing need 
in Los Angeles, we must build housing for people living on SSI, 
housing for people earning $10 an hour, housing for people 
earning $20 an hour. In other words, we need to build new 
housing in Los Angeles that is affordable to low- and moderate-
income people.
    The Mayor has taken a proactive position on the development 
of affordable housing. Our office has been actively looking for 
opportunities to encourage development of affordable and 
workforce housing near transit systems. During the past few 
years, most of the City's housing development and investment 
has occurred in downtown, Hollywood, and North Hollywood. That 
is why when Rudy Montiel of HACLA presented the Mayor last year 
with the concept of redeveloping 1950's-era public housing into 
mixed-income urban villages, the idea caught the Mayor's 
attention. If a plan could be created that could bring 
investment, affordable housing, and jobs to Watts, the Mayor is 
interested.
    However, before any idea can become a reality, the funding 
must be identified, the community must be engaged, and a plan 
must be developed. That is why it is important for all of us to 
begin at the same place. Today, no money has been committed, 
community engagement has not begun, and there is no plan in 
place. But when the time comes, rest assured that community 
involvement will play a key role in this process.
    Before beginning a community engagement process, the City 
must determine how realistic the funding sources are for the 
project. As you know, the redevelopment of public housing 
hinges on the City's ability to leverage local resources with 
Federal, State, and private sector money. Next year, the 
Housing Authority intends to seek HOPE VI funding.
    The Major supports this in concept and in anticipation of 
this, the Mayor has initiated a capital planning effort with 
all of the departments of the City that have housing funds. 
These departments include the Housing Authority, the Los 
Angeles Housing Department, the Community Redevelopment Agency, 
the Los Angeles Homeless Services Authority, and the Community 
Development Department.
    The purpose of the capital plan is to identify all the 
resources available to support the creation of affordable 
housing in Los Angeles over the next 5 years. During the year 
ahead, the Mayor looks forward to working with elected and 
local leaders to develop a process for community engagement in 
Watts and to determine if the redevelopment of public housing 
here could be implemented. We must begin with a good plan and 
the plan must begin with the community.
    We have been reviewing best practices throughout the 
country and the Mayor has drafted a set of principles that he 
believes are necessary for successful redevelopment of public 
housing. I will briefly share with you some of these 
principles.
    First, involve the residents in the planning. The Mayor 
believes the planning effort should involve the people who live 
and work in the neighborhood. Residents should be engaged in 
the process from the start and throughout.
    Second, ensure no loss of public housing. One-for-one 
replacement of public housing units is a priority, and 
development must be phased-in in a way that minimizes 
displacement of existing tenants. Emphasis should be placed on 
on-site relocation of tenants.
    Third, building a housing ladder--build housing for a mix 
of incomes that includes public housing, affordable housing, 
and market rate housing. Emphasize housing for families and 
make both rental and homeownership opportunities available at 
varying income levels. Maximize to the greatest extent possible 
affordable housing.
    Any such redevelopment project should connect to the 
schools and parks. Projects should connect to public 
transportation. Projects should connect to jobs. Any 
redevelopment effort must be envisioned as a chance to create 
an economic ladder in South Los Angeles. Permanent jobs in 
growth industries must be part of the plan along with job 
training, job placement, local entrepreneurship, minority 
contracting, employment opportunities for neighborhood 
residents during and after construction, and making the 
neighborhood safe.
    Finally, make the neighborhood green. Whether it is solar 
panels or rooftop gardens, a new development should be a model 
for sustainable design that will reduce the carbon footprint of 
Los Angeles and make the air in the neighborhood easier to 
breathe.
    Thank you for your time.
    [The prepared statement of Ms. Hisserich can be found on 
page 44 of the appendix.]
    Chairwoman Waters. Thank you very much. Next we will hear 
from Mr. Eric Brown, economic development director for Watts, 
Office of Councilwoman Janice Hahn, Council District 15.

  STATEMENT OF ERIC BROWN, ECONOMIC DEVELOPMENT DIRECTOR FOR 
 WATTS, OFFICE OF COUNCILWOMAN JANICE HAHN, COUNCIL DISTRICT 15

    Mr. Brown. Good afternoon, Chairwoman Waters. My name is 
Eric Brown, and I am the deputy representing Councilwoman 
Janice Hahn today. I would like to read a letter that she has 
submitted to your committee:
    ``Dear Congresswoman Waters:
    ``I would like to commend you for holding a hearing on 
behalf of the Subcommittee on Housing and Community Opportunity 
in the Jordan Downs Development. I understand there are extreme 
difficulties and challenges that are presented in the creation 
of affordable housing. Creating new jobs, new housing, and safe 
communities have been my main goals since I was elected to 
represent this community in 2001.
    ``I have more housing developments in my council district 
than any other council district in the City. Most of these 
developments are some of the oldest public housing stock in the 
City. I think that the Federal Government has neglected these 
developments in many ways and the constituents of my district 
deserve better.
    ``(1) The idea of redeveloping any of our public housing 
developments is very unnerving to many people, particularly the 
residents. Because of that, I will only support a redevelopment 
that builds replacement housing before any current housing is 
demolished. This, in my opinion, is the only acceptable way to 
go about the redevelopment, and because of that, the 
acquisition of new land near Jordan Downs is vital to any plans 
for redevelopment.
    ``(2) The main principle for redeveloping Jordan Downs is 
to revitalize this community. Redeveloping Jordan Downs would 
bring jobs, retail, and homeownership to a neighborhood that 
both needs and deserves these things.
    ``(3) I have had two other successful redevelopment 
projects in my district, Harbor Village and Dana Strand, that 
have been very successful. Dana Strand in the Wilmington, for 
example, is currently underway and when completed will consist 
of 400 units, consisting of 100 senior units, 120 townhomes, 
116 rental units, and a possible 77 units for homeownership.
    ``(4) I feel there could be great potential for the Jordan 
Downs redevelopment project if we can create a strong public 
and private partnership with all levels of government. The 
impact of this project could be a model for developments around 
our City, State, and country.
    ``(5) I believe that redeveloping Jordan Downs will require 
an equal partnership with the community, all levels of 
government, and private entities to create a transparent 
process to make this project a success. Most importantly, we 
must include the current residents of Jordan Downs. Oftentimes, 
they are the last to get information and weigh in on the 
decisions that most impact their lives. The residents of Jordan 
Downs must be included in this process from the very beginning.
    ``Thank you again for holding this hearing and for allowing 
me to give my input.
    ``Sincerely, Janice Hahn, Councilwoman, 15th District, City 
of Los Angeles.''
    [The prepared statement of Ms. Hahn can be found on page 40 
of the appendix.]
    Chairwoman Waters. Thank you very much.
    Last on this panel, we will hear from Mr. Rudy Montiel, the 
executive director of the Housing Authority of the City of Los 
Angeles.

  STATEMENT OF RUDOLF C. MONTIEL, PRESIDENT AND CEO, HOUSING 
              AUTHORITY OF THE CITY OF LOS ANGELES

    Mr. Montiel. Thank you, Madam Chairwoman.
    Chairwoman Waters. I would like you to speak right into the 
microphone and speak up so everybody can hear you.
    Mr. Montiel. Can everybody hear me? Good. Why are we 
talking about redevelopment? I think we understand 
redevelopment is necessary. It is a national issue. You can see 
the housing. The housing is 1940's vintage. The rooms are 
small, the kitchens are small. They are not energy efficient. 
Many of these developments are not close to good public 
schools. They lack good public safety.
    So do we have a plan? No, we don't have a plan. We have a 
concept. We have a vision that was articulated by the Deputy 
Mayor quite well. It is a vision that is not focused on Jordan 
Downs. It is citywide. We are looking at other opportunities 
citywide.
    It is a focus that is based on development of new units for 
public housing on a one-to-one replacement. May I say that 
again? One-to-one replacement. I will even say it in Spanish. 
It will be a phased redevelopment because as was stated 
earlier, Los Angeles is full. We have nowhere for our people to 
live, for our families to live if we displace them from Jordan 
Downs.
    It will be green. It will have all the latest efforts to 
make our development sustainable, both the construction and the 
operation phase. I want to emphasize that nothing happens 
without involving the residents. We will not do anything 
without involving the residents.
    Now, are there rumors? Are there things that people are 
hearing? Yes. I am here as the chief executive officer of the 
Housing Authority of the City of Los Angeles to tell the public 
today that we have no definite plan for redevelopment of Jordan 
Downs.
    Chairwoman Waters. Would you repeat that, please?
    Mr. Montiel. I am here to tell the public that we have no 
definite plan for redevelopment of Jordan Downs today. What is 
our concept? Everybody can see that there is vacant land 
adjacent to Jordan Downs. Would we like to acquire it? Of 
course we would.
    What I am showing now is item one, and we passed out some 
smaller versions of this. They are in the audience. This is 
vacant land that is adjacent to Jordan Downs. This is Jordan, 
this is 97th, this is 103rd, this is Great Street, and this is 
Alameda. As you can tell, there is a tremendous amount of 
vacant land. The concept would be if we were to acquire this 
land, we would build new units. Once the new units were up, 
then we could move families from the old units to the new units 
and then essentially demolish vacant units and build more.
    Some people have heard that we have talked with the LAUSD. 
We have because we believe that Jordan High School in the right 
community led effort in partnership with city agencies, LAUSD 
led by the Mayor's office, we could indeed envision a time when 
Jordan High School would be as nice as the brand new high 
school over in Southgate that is right there. In addition to 
that, there is potential here on the Alameda corridor to 
develop retail opportunities that could not only serve the 
residents of the new Jordan Downs but also serve as a place 
where there could be places of employment for people.
    Part of our concept says that we would have local hiring 
agreements when we do redevelopment so that the people who live 
there today who have the social equity also have the 
opportunity to prosper in this redevelopment. Will we involve 
the nonprofit sector? Absolutely. Many of the nonprofits are 
very skilled at providing the services that we as a housing 
authority are not skilled at.
    Will we involve the private sector? Absolutely. The private 
sector can develop vertical development far more efficiently 
than the housing authority. This is what it is all about. A 
major partnership, nonprofit, for-profit, public entities, and 
public/private coming together to redevelop a new urban 
village.
    Where are we today? Today we don't have a definite plan. 
Today the land is not acquired. When we acquire the land, if we 
acquire the land, then we could begin the process of engaging 
the public, engaging our community to determine what we can do 
together at Jordan Downs. Definitely at this point we have not 
entered into a negotiation, much less a contract with any 
developer, with any nonprofit, with any for-profit. It simply 
isn't true.
    I would ask you, as you hear these rumors, the people in 
the audience, if you are concerned, if you have doubts, if you 
have heard rumors, call me. Marianna DeSoto is at the back of 
the room. She has business cards. It is area code (213) 252-
1810
    Chairwoman Waters. And they can call you?
    Mr. Montiel. They can call. Madam Chairwoman, thank you 
again for the opportunity to testify.
    Chairwoman Waters. Thank you very much.
    [The prepared statement of Mr. Montiel can be found on page 
50 of the appendix.]
    Chairwoman Waters. At this point, we will ask questions of 
our panel before we call the second panel. I an going to start 
with our first witness, Ms. Blom. But before I do, I see that 
one of our city council persons just entered the room, 
Councilman Bernard Parks.
    Ms. Blom, you started talking with us about HOPE VI. A lot 
of people here know what HOPE VI is and a lot of people don't 
know. What is HOPE VI and why do you think your testimony about 
HOPE VI is important to what we are doing here today?
    Ms. Blom. Thank you, Ms. Waters. The HOPE VI Program was a 
program that began in 1993 to fund housing authorities for the 
redevelopment of distressed public housing. Currently the 
Department is providing 20 million grants to housing 
authorities on a competitive basis.
    The Fiscal Year 2008 Notice of Funding Availability will 
become available soon to housing authorities, and the Housing 
Authority of the City of Los Angeles would be able to apply 
under that notice of funding availability for this project or 
for other projects within its portfolio that are of a 
distressed nature and provides grant funds to the housing 
authorities to relocate the families, provide community and 
supportive services to the families, demolish the development 
and then rebuild in a mixed-income setting so that families 
will be able to return and come back to a redeveloped project 
that has a mix of public housing, affordable housing, and 
hopefully market rate housing as well.
    Chairwoman Waters. All right. Ms. Hisserich. Are we all 
here? Yes. You mentioned a kind of vision that the Mayor has 
for housing development and expansion in the city because of a 
housing crisis. You alluded to a plan of sorts for perhaps 
South Los Angeles. Could you tell us a little more about that? 
Is there a definite plan for South Los Angeles that you know 
about at this time?
    Ms. Hisserich. For housing, there is not a definite plan 
for South Los Angeles. The Mayor is very interested in 
developing housing in South Los Angeles, throughout South Los 
Angeles, and throughout the City of Los Angeles. The goal for 
housing is to develop mixed-income communities throughout Los 
Angeles. What that means is that there is a great deal of 
discussion in the City about traffic in parts of the west side.
    The Mayor believes by putting a fair share of affordable 
housing in parts of the City where there is not affordable 
housing, they can relieve traffic. Similarly, because of 
economic disadvantages in South Los Angeles, the Mayor believes 
that by creating mixed-income communities in South Los Angeles 
we can create jobs and economic opportunity in South Los 
Angeles that aren't available today. The redevelopment of 
public housing is something that we are looking at throughout 
the City at all public housing sites but there isn't a plan as 
such in South Los Angeles for that.
    Chairwoman Waters. All right. I'm trying to get you to be 
as specific as you can. I appreciate that. Here in South Los 
Angeles we have Nickerson, of course Jordan, Imperial Courts, 
Gonzaque, and Avalon. There is a rumor that there is a plan for 
downtown somewhere to get rid of all of the public housing. Is 
that true?
    Ms. Hisserich. Oh, that is absolutely untrue.
    Chairwoman Waters. Okay. All right.
    Ms. Hisserich. There is no such plan.
    Chairwoman Waters. Okay. Very good. Thank you.
    Mr. Brown, thank you for sharing with us the letter from 
Janice Hahn. I think she was very clear that she would like to 
see improvements and that if there is a way to make life 
better, to make the public housing developments better, she 
would like to see that. She is adamantly opposed to this 
dislocation, displacement in any plan. There must be community 
involvement. As of today, she does not know of any plan to do 
any development here at Jordan because no land has been 
acquired. No money has been put up. Am I correctly stating her 
position?
    Mr. Brown. You are absolutely correct, Chairwoman Waters.
    Chairwoman Waters. Is there anything you want to add to 
that?
    Mr. Brown. No, thank you.
    Chairwoman Waters. All right. Now, Mr. Rudy Montiel. I have 
a lot of questions for you.
    Mr. Montiel. Okay.
    Chairwoman Waters. Let us start with the land. You pointed 
out to all of us the land and you gave all of our residents a 
copy of this layout that includes Jordan. It shows where the 
land is and the surrounding streets. Where are you in the 
acquisition of the land? Are you actively trying to acquire 
that land?
    Mr. Montiel. We have actively pursued acquisition of land 
for about the last year, Madam Chairwoman. The land had been 
tied up in litigation. It is a public record issue. At this 
point, we do not have control of the land.
    Chairwoman Waters. Why is it tied up in litigation?
    Mr. Montiel. It is tied up in litigation between the 
sellers and another buyer. It goes back to 2003.
    Chairwoman Waters. So it sounds as if someone attempted to 
buy that land, and they have some kind of option of right-of-
refusal, and that has not been resolved. Is that correct?
    Mr. Montiel. That is correct. We understand the resolution 
on that is forthcoming through the court shortly.
    Chairwoman Waters. So you have not spent a dime of your 
money. There has been no Federal money. There has been no CDBG 
money. There has been no home money, anything spent to acquire 
that land at this point. Is that right?
    Mr. Montiel. We have not spent a single dollar of any type 
of money.
    Chairwoman Waters. If the court cleared up the litigation 
anytime soon, and you moved to acquire the land, do you have 
the money to do it?
    Mr. Montiel. We have the funds to acquire the land or the 
lines of credit to accomplish that. Yes, ma'am.
    Chairwoman Waters. How much does that land cost?
    Mr. Montiel. That is an interesting question because we 
believe that the land is worth less than the owners believe 
that the land is worth.
    Chairwoman Waters. How much are they asking for the land?
    Mr. Montiel. They are asking for $40 million.
    Chairwoman Waters. They are asking for $40 million for the 
land. Of course, if you were trying to get it, if you were 
going to pursue it, you would be negotiating to try and get it 
at a cheaper price?
    Mr. Montiel. Absolutely.
    Chairwoman Waters. If you got involved in such negotiation 
in the next week or month or 6 months, how long do you think it 
would take to acquire the land?
    Mr. Montiel. I believe that once the lands were out of the 
litigation stage, etc., it would probably require between 90 
and 180 days to actually get a contract on the land.
    Chairwoman Waters. Is there any toxic material deposited on 
that land?
    Mr. Montiel. We believe that there may be some 
environmental impact to at least the first 6 to 12 inches of 
soil on the land.
    Chairwoman Waters. If so, that would add to the cost. 
Clean-up cost would have to be incurred in order to prepare the 
land for development. Do you have that money? Are you expecting 
that from the Federal Government in the Brownfields Act or 
where would you get that money from?
    Mr. Montiel. My sense is that once the site was under 
control, we would then begin to develop the plan that we were 
talking about, not only with the resident involvement, but also 
on the financial side bringing together the City resources, and 
the State and Federal resources. The Brownfields Act could 
potentially be a source of funding for any clean-up.
    Chairwoman Waters. As you know, citizens, whether they are 
residents of Jordan Downs or any other part of the City, are 
concerned about the environmental problems that would be 
involved with land where you may have deposits. How would you 
involve the citizens in making sure that their concerns can be 
satisfied that if there was a plan to develop that land, it 
would be cleaned up and saved?
    Mr. Montiel. Indeed. There are several requirements at the 
State, the local, and even the Federal level that require 
community involvement. Obviously on the redevelopment side your 
legislation is very strong when it comes to tenant protections. 
We agree with it almost to the letter of the legislation. It is 
good legislation.
    Secondly, on the NEPA and CEQA, the environmental 
permitting processes for the State of California are extremely 
rigorous, among the most rigorous in the Nation. Finally, just 
the local planning process of the comp plan for this part of 
the City is being developed by the planning department so at 
some point when we were trying to do something here we would 
have to involve the planning department and they would have 
certain public notice requirements as well in meeting 
requirements.
    Chairwoman Waters. There is a rumor that you have already 
contracted with developers. Do you, or have you, entered into 
any agreements with developers to develop Jordan Downs?
    Mr. Montiel. Absolutely not.
    Chairwoman Waters. You have signed no contracts?
    Mr. Montiel. I have signed no contracts.
    Chairwoman Waters. You have put no requests out for 
proposal?
    Mr. Montiel. The only request for proposal that we have put 
out, Madam Chairwoman, is for HOPE VI consultants for citywide 
development.
    Chairwoman Waters. But this would not necessarily be a HOPE 
VI project. Is that right?
    Mr. Montiel. Not necessarily.
    Chairwoman Waters. Not necessarily.
    Mr. Montiel. Not necessarily. Ideally HOPE VI money would 
be very helpful here, but at this point in the process we are 
not sure what the plan would bring.
    Chairwoman Waters. Does this project depend on HOPE VI 
money?
    Mr. Montiel. I don't think that it would depend on HOPE VI 
money, although HOPE VI money would be very attractive because 
it provides the soft-side dollars, resident training, the job 
opportunity, the family self-sufficiency dollars.
    Chairwoman Waters. Ms. Blom, how much money did the 
President put in the budget for HOPE VI?
    Ms. Blom. The President did not ask for any funds as part 
of the Fiscal Year 2008 or Fiscal Year 2009 budget submission.
    Chairwoman Waters. I think it is important to know that the 
President has not requested any funding for HOPE VI. We have a 
HOPE VI bill, my legislation that would fund HOPE VI if it goes 
through the Congress of the United States. Of course it would 
be on the President's desk for signature, but I think it is 
important for Mr. Montiel to know that if he is depending on 
HOPE VI money, it may or may not be available to him. Okay. So 
we have no developers. Do you have any private entities that 
have invested any money in the proposed Jordan Downs 
redevelopment?
    Mr. Montiel. You know, that is an excellent question. If 
there are private entities that have invested any money on 
Jordan Downs it has not been, and I repeat it has not been at 
the direction of the housing authority of the City of Los 
Angeles.
    Chairwoman Waters. So does that mean that you don't know 
about any money that has come from any private source as an 
investment for redevelopment of Jordan Downs? Is that what 
you're telling me?
    Mr. Montiel. That is what I am telling you.
     Chairwoman Waters. Because you know that is one of the 
rumors.
    Mr. Montiel. I understand that.
    Chairwoman Waters. There has been no investment by a 
private entity. I want the people to understand what you are 
saying very clearly, there has been no investment of private 
money at this time. Is that correct?
    Mr. Montiel. Not in our direction. By saying that, I am 
saying that I do not know of anyone who has made an investment 
in that property.
    Chairwoman Waters. All right. Thank you very much. How many 
vacant units do you have?
    Mr. Montiel. I would have to ask our manager, Martin 
Purrey. Martin, are you in the room? If you will give me a 
second, Madam Chairwoman, Mr. Ricks, our director of public 
housing, will give me that answer.
    Chairwoman Waters. Okay.
    Mr. Montiel. We have 20 vacant units here at Jordan Downs 
today, two zero.
    Chairwoman Waters. Two zero. There has been a rumor, Mr. 
Montiel, that you may not have been investing in upkeep at 
Jordan Downs and Nickerson because you are anticipating 
redevelopment and you are allowing the units to be boarded-up 
and you are not putting money towards the upkeep that it should 
be put toward. Is that true?
    Mr. Montiel. Well, I would answer that, Madam Chairwoman, 
this way. Not only is it not true, but during my administration 
that began at the end of 2004, we have actually reduced the 
number of vacant units citywide. Now, we have taken a phased 
approach and we have focused on some communities faster than 
others.
    Jordan Downs used to have a lot of vacant units. Today it 
has a lot less, only 20. Ramona Gardens on the east side of 
town had at one time about 120 units. Today they don't have any 
vacant units. We are now getting to the point where we have let 
an RFP for asbestos abatement citywide to accelerate the 
process of filling vacant units targeting Nickerson Gardens 
where we have over 200 vacant units right now.
    Chairwoman Waters. That is a lot.
    Mr. Montiel. Yes. I would add, Madam Chairwoman, that many 
of these vacant units have been vacant for over 5 years.
    Chairwoman Waters. So while you are in the process of 
thinking about redevelopment, of looking at land acquisition, 
working on a plan perhaps are you going to continue to do the 
work that is necessary to make sure that the units and the 
people who live here now are safe and secure and that they are 
getting the kind of repairs and upkeep that is necessary for a 
good quality of life?
    Mr. Montiel. Yes, ma'am, to the extent that we utilize our 
relatively small capital budget. As you know, capital fund 
allocations have actually been reduced over the last 5 years 
from Congress and from the administration of budgets. If those 
were to increase, we would obviously do more work. But as far 
as utilizing the money that we are getting, we have actually 
gone from being 3 years in arrears to trying to spend the money 
we get the same year we get it.
    Chairwoman Waters. I am aware of that problem and that is 
one of the things my subcommittee is working on.
    Mr. Montiel. Indeed.
    Chairwoman Waters. I guess what I am saying is that you 
have 20 units, and that is not a lot. That is relatively small 
compared to some of the other public housing developments. 
However, because as the Mayor's representative has said, we 
have a housing crisis, those units are needed by somebody. I am 
talking about ordinary repairs of paint, changing washbasins, 
putting in flooring. Do you plan on doing that?
    Mr. Montiel. Yes. In fact, under Mr. Ricks' direction, our 
new director of public housing, he has initiated a very 
aggressive program of accelerating repairs and accelerating 
major improvements to the facility throughout the City starting 
with roofs, playgrounds, and systems such as electrical and 
plumbing.
    Chairwoman Waters. Now, if you redevelop it, would probably 
follow the HOPE VI model. The HOPE VI model is that you have 
market rate units.
    Mr. Montiel. Yes.
    Chairwoman Waters. That means the fair market rate that has 
been charged out in the larger society. You also have 
homeownership opportunities?
    Mr. Montiel. Yes.
    Chairwoman Waters. And then, of course, you have 
opportunities for those who qualify for public housing.
    Mr. Montiel. Yes.
    Chairwoman Waters. How then can you do one-for-one 
replacement of all the people who are in public housing if you 
are going to dedicate some of these units to market rate and 
homeownership?
    Mr. Montiel. Excellent question. In our concept, in our 
vision because, again, no plan exists, it would be for 
increasing the number of units that are onsite because 
additional land would be provided as we said. Plus the density 
on the existing land would also increase so in some ways you 
would have some denser housing.
    I believe our Mayor periodically calls it elegit density 
which would allow more units here going from about 700 to about 
2,100 units in the overall development and that would allow for 
public housing one-to-one replacement. For workforce housing a 
similar number, about 700 units, and then about 700 units of 
market rate and homeownership opportunities.
    Chairwoman Waters. What is workforce housing?
    Mr. Montiel. Workforce housing is best defined perhaps in 
terms of the area of immediate income. Public housing is 
typically around 30 percent of the low area. Workforce housing 
would go from there probably all the way to 80, 90, or 100 
percent where you have working families who still cannot afford 
the market rent in the City of Los Angeles. As the Deputy Mayor 
said, it is very expensive. Then the market rate would probably 
start at 100, 110, or 120 percent on up.
    Chairwoman Waters. So you anticipate that should you do 
development here, you would expand the number of available 
units so that you could accommodate the concept that you just 
described, market rate and homeownership, and still have 
housing available for people who qualify for public housing. 
But you talked about density. Could you have more density 
without the approval of the people who live here?
    Mr. Montiel. No.
    Chairwoman Waters. So if the people who live here say, ``It 
is dense enough. We don't want any more density'' how then 
would you accommodate the concept?
    Mr. Montiel. Well, if the people were to say that we cannot 
have any more density and the project, as they say in 
development terms, would not pencil without more density. It 
would really drive the question of whether or not Jordan Downs 
gets redeveloped. As we have discussed before, we are looking 
at other opportunities throughout the City understanding that 
if Jordan Downs doesn't happen, where else can we begin 
redevelopment.
    Chairwoman Waters. As I remember this development, we have 
outdoor space that we don't want to lose.
    Mr. Montiel. Correct.
    Chairwoman Waters. Does the proposed development anticipate 
utilizing that outdoor space to create the density?
    Mr. Montiel. Yes and no. Let me answer it this way. We 
believe that in the new urban approach to redeveloping public 
housing at Jordan Downs, although there is a lot of space here, 
it is not that well-utilized. For example, you have a field 
here at the school that gets used about 10 percent of the time. 
You have a field here. Then you have a lot of green space 
between the units.
    I am wondering as you go to other places in Southern 
California that are very attractive to people on limit in Santa 
Monica and places like that, this is a perfect example. It has 
elegit density, yet it has the amenities for people willing to 
pay top dollar to get it. That is a concept, how to better 
utilize the space.
    Chairwoman Waters. I understand what you are saying, but 
when you look at a development like Playa Vista and you compare 
the way the space is used, and then you take a look at Jordan 
Downs or Nickerson or Gonzaque or Avalon Gardens, you will 
probably find that there are more children per unit than in 
Playa Vista which means in this era of everybody embracing 
green space, you probably will need sizable green space.
    Mr. Montiel. Indeed. Indeed. Good playgrounds and good 
activities for the children. I think the councilwoman saw that 
in the redevelopment of Dana Strand. There was an effort to 
provide good protected green space for the children at Dana 
Strand and that seems to work well.
    Chairwoman Waters. That is good. Well, I thank you, Mr. 
Montiel. I thank all of our panelists for your testimony. Mr. 
Montiel, you are going to stay with us?
    Mr. Montiel. Yes, ma'am. I will be here all afternoon.
    Chairwoman Waters. We are going to call up our second 
panel. The Chair notes that some Members may have additional 
questions for you. Without objection, the hearing record will 
remain open for 30 days for our Members to submit written 
questions to these witnesses and to place their responses in 
the record. Thank you, panel.
    We will call on our second panel at this time. We basically 
have heard from HUD, the City of Los Angeles, the Housing 
Authority of the City of Los Angeles, and the Councilwoman who 
represents this district.
    At this time we are going to hear from those people who 
live and/or work in the community who will share with us their 
understanding about what is taking place. I will introduce 
those witnesses to you at this time.
    Mr. Keith Henderson, business manager, Jordan Downs 
Resident Management Corporation; Mr. Marlo Jones, resident, 
Jordan Downs Housing Development; Mr. Henry Broomfield, chair, 
Watts Neighborhood Council; Reverend Reginald A. Pope, Pastor, 
Bethel Missionary Baptist Church; Reverend Greg Bynum, Pastor, 
Lighthouse Church & Community Outreach. He is not here? All 
right. He is not here at this time. Mr. Oscar Neal, chair, 
Watts-Willowbrook Chamber of Commerce.
    We are going to start with Reverend Reginald Pope, Pastor 
of Bethel Missionary Baptist Church. I would like to welcome 
all of our members of this panel with us today. We have to say 
certain things to go into the official record. That is why they 
have to keep handing me these pieces of paper. Without 
objection, your written statements will be made a part of the 
record, and you will now be recognized for 5 minutes.
    Thank you, Reverend Pope.

    STATEMENT OF REVEREND REGINALD A. POPE, PASTOR, BETHEL 
                   MISSIONARY BAPTIST CHURCH

    Rev. Pope. Thank you.
    Chairwoman Waters. Speak right into the microphone and 
speak up so they can hear you way in the back, Reverend Pope.
    Rev. Pope. Honorable Congresswoman Maxine Waters, members 
of the Subcommittee on Housing, community members and friends, 
my name is Reginald A. Pope, Pastor of the Bethel Missionary 
Baptist Church, located about one half mile from the Jordan 
Downs Housing Facility.
    As a person who has served this community over the past 32 
years, I am very concerned about the possibility of the Jordan 
Downs Housing Projects being redeveloped. Rumor has it that 
plans are being made to completely redevelop the area and, if 
so, it is vitally important that all entities in the community 
have a say in the planning process. Redevelopment will affect 
families of our congregation who reside in the complex, our 
church itself which nurtures those families, and the entire 
atmosphere of the community.
    Therefore, let it be known for certainty if redevelopment 
is being planned, who are the persons doing the planning, what 
efforts have been made to adequately inform and involve the 
entire community, what will happen to the residents of the 
complex, what will replace the facility, and what are the 
timelines for beginning and completion of the project?
    Madam Chairwoman, thank you for allowing me to speak today.
    [The prepared statement of Reverend Pope can be found on 
page 56 of the appendix.]
    Chairwoman Waters. Thank you very much, Reverend Pope. I 
know that you have a previous commitment and that you won't be 
able to stay. While I am thanking you for your testimony, let 
me thank you for your love of this community, your service to 
the community, and the open doors of your church that we all 
visit on a regular basis and I will be with you for this, I 
think, weekend where the conference takes place. We depend on 
you. My last appreciation is about the transportation that you 
have provided for the attempts that we have made to do job 
training with the fiber optics class. I want to tell you that 
was very much needed and appreciated by all who were the 
beneficiaries. Thank you so much, Reverend Pope.
    Rev. Pope. Thank you very much.
    Our next panelist will be Mr. Keith Henderson, the Business 
Manager, Jordan Downs Resident Management Corporation.

 STATEMENT OF KEITH HENDERSON, BUSINESS MANAGER, JORDAN DOWNS 
                RESIDENT MANAGEMENT CORPORATION

    Mr. Henderson. Good afternoon, Congresswoman Maxine Waters.
    Chairwoman Waters. Good afternoon.
    Mr. Henderson. We welcome you with firm handshakes and open 
arms. My name is Keith Henderson, and I am the business manager 
of the Jordan Downs Resident Management Corporation (RMC). I 
was elected 3 years ago by the residents to represent the 
residents of the housing development. What I do as part of the 
RMC is address concerns of the residents and take those 
concerns to the Housing Authority of the City of Los Angeles. 
We also plan events for the residents of Jordan Downs with the 
help of the City of Los Angeles Department of Recreation and 
Parks and the Los Angeles WorkSource Center.
    Today, I am here to speak about the redevelopment process 
of Jordan Downs Housing Development and all the issues attached 
to it. As far as what I know about the situation, I do not know 
anything yet about any plans to redevelop Jordan Downs. 
However, I have heard many things about it, such as talk about 
tearing down all 700 units and building half of them back, 
leaving the other half of the residents to fend for themselves. 
But if and when I get information as a community leader, I am 
the first one to let the community know.
    I feel that there needs to be beautification such as 
painting the inside and outside of the dwellings. This will 
improve the look of Jordan Downs so it will not look so much 
like a Federal penitentiary. Now, as far as redevelopment goes, 
redevelopment can be anything from breaking down bricks to 
adding a fishing pond in the park. We, as the RMC, do not know 
what is really going on but we are obligated to ask and do all 
the work necessary to become well-informed. We are here to 
listen and see what happens next.
    I personally would like to see the factory adjacent to 
Jordan Downs torn down so we can improve the overall look 
because it is located literally in the middle of Jordan Downs. 
But the main issue to me is if we can't break down the issues 
going on inside the development right now, then rebuilding will 
be useless because we will have the same issues after the 
overall redevelopment.
    In other words, it would be like a new house with old 
plumbing. These issues I speak of range from the high 
unemployment rate to Black on Black crime, Brown on Black 
crime, police harassment of residents, as well as the new gang 
injunction which I believe is unjust and discriminates based on 
race.
    Lastly, I would add if anything has materialized, as far as 
any redevelopment plans, then as a board member I would have to 
ask that whomever is doing the redevelopment that we 
immediately be informed and have monthly meetings telling us 
what is going to happen, who is involved, who is responsible 
for what, and what is to come in the future. Most importantly, 
if there are any jobs involved at any level, residents should 
be given first opportunity for those jobs.
    Also, if there are any plans to temporarily relocate 
residents, they should remain in the community and be give the 
first opportunity to return to Jordan Downs. And of the utmost 
concern to me, if there are any plans developed, I would hope 
no units are reduced. If anything there should be more units.
    Thank you again, Congresswoman Waters, for having me 
testify here today.
    [The prepared statement of Mr. Henderson can be found on 
page 42 of the appendix.]
    Chairwoman Waters. Thank you so much Mr. Henderson, not 
only for being here today, but for your leadership. My staff 
and others all know of what you are doing and we appreciate it 
very much. I am sure the residents here appreciate the kind of 
leadership that you are providing as the business manager. 
Thank you.
    Next I am going to call on Mr. Marlo Jones, fondly known as 
Bow Wow. I thank you for being here today, Mr. Jones, but I 
thank you more for the work that you do on preventing gang 
violence. Thank you for the work that you do with Mr. Greg 
Thomas and the CUSH organization. I welcome you and your 
comments and your thoughts about this rumored redevelopment.

   STATEMENT OF MARLO JONES, RESIDENT, JORDAN DOWNS HOUSING 
                          DEVELOPMENT

    Mr. Jones. Good morning, Congresswoman Maxine Waters, and 
committee members. My name is Marlo Jones aka (Bow Wow), and I 
have been the gang intervention specialist for Jordan Downs 
Housing Development for the past 4 years. As you know, the 700 
units in Jordan Downs provide housing to low-income families 
who desperately need this assistance.
    Two months ago, I attended a meeting at Jordan Downs 
sponsored by SCLC and other organizations. I was surprised to 
hear about the possible reconstruction of Jordan Downs. Why are 
there rumors of possibly tearing down the 700 units in Jordan 
Downs? What is the motive? Why is the Housing Authority picking 
on our projects? Why isn't the Housing Authority investing 
money into our projects resources instead of surveillance 
camera equipment? Our residents here at Jordan Downs do not 
have a clue or understand what is going on.
    We would like to know the truth! If the residents at Jordan 
Downs are relocated, how and when will we find out? Will you 
already have a plan for relocation? Will we be relocated to 
Palmdale, or Lancaster, California? If so, the residents will 
face many inconveniences, such as housing, transportation, and 
law enforcement problems. What finances will be provided to the 
residents when and if relocated? Finances such as monies for 
higher rent, for moving, for transportation costs to stay 
connected to family and friends? Our supermarkets, schools, 
laundromats, and other stores are conveniently located near our 
homes.
    How do you adapt, moving residents who receive county aid 
and other services to a new area outside Los Angeles? It is 
very traumatic moving from a mini-community like Jordan Downs 
to a desert like Palmdale or Lancaster. The residents need 
leadership if all the residents are relocated to another area--
    Chairwoman Waters. Excuse me one moment, Mr. Jones. Slow 
down a little bit. Our translator is trying to keep up with 
you. Our recorder is trying to keep up with you, so slow down 
just a little bit.
    Mr. Jones. Okay. If all of the residents are relocated to 
another area, the services that they receive will no longer be 
available to the people who need the help. I feel that the 
people in the community of Jordan Downs will be harmed and feel 
rejected. I would like to end with, please be conscientious 
when making all your decisions. We are underprivileged humans 
already.
    Thank you for your time and consideration to our concerns 
and thank you, Congresswoman Waters, for having me today.
    [The prepared statement of Mr. Jones can be found on page 
49 of the appendix.]
    Chairwoman Waters. Thank you very much for being here.
    All right. We have Mr. Henry Broomfield, the chair of the 
Watts Neighborhood Council. I want to thank you for your 
service. I appreciate those persons who take time out of their 
lives to provide leadership for the community. It is not easy. 
I know that but those of you who decide to do it are very much 
appreciated and I thank you for it.
    Mr. Broomfield, please share with us your testimony for 
today.

   STATEMENT OF HENRY BROOMFIELD, CHAIR, WATTS NEIGHBORHOOD 
                            COUNCIL

    Mr. Broomfield. Good morning, Congresswoman Waters, and 
committee members. My name is Henry Broomfield, and I am the 
chair of the Watts Neighborhood Council. I am here today to 
express the thoughts and concerns of the Council and the 
community that we represent.
    First, I want to thank Congresswoman Waters for having the 
foresight to hold this hearing right here in the community and 
for making sure that members of the community have the 
opportunity to address this issue that is so important to them.
    As a Council, we have heard concerns and had questions 
about the possible redevelopment of Jordan Downs at almost 
every monthly meeting. People are scared, nervous, and dismayed 
because of all the rumors floating around our community. We 
want to know what the City is planning. Are they planning to 
remodel or tear down? If remodel, what structure will they do 
it in? Will it be portions that will move people to other units 
during the process or as a whole and re-locate everyone at the 
same time?
    The Watts Neighborhood Council is very displeased with the 
Housing Authority because they have allowed so many rumors to 
go unchecked for so long. In their consideration of 
redeveloping housing projects in South Central Los Angeles, 
they have created fear and increased distrust in the community. 
They have caused dismay and made it difficult for active 
leaders to address resident concerns. Our purpose as a Council 
is to bring the community together, to encourage the community 
to be involved. How can you do that when people don't know 
where they will be living month-to-month?
    Most of the questions that we had have been answered. 
Therefore, the question is, will they be moving half of the 
residents to Palmdale and Lancaster, remodeling their units, 
and when they are done, moving them back in? Then moving the 
other half out to Palmdale and Lancaster and bringing them back 
once the second half is completed?
    At the end of the statement, what I want to say is that our 
major concern is if it is going to be in development and when 
it will be in development that the community and our youth have 
the opportunity to have good jobs with this, not only building 
but clerical work and different types of work.
    I want to thank you and the staff for allowing me to speak 
today. Thank you.
    [The prepared statement of Mr. Broomfield can be found on 
page 38 of the appendix.]
    Chairwoman Waters. Thank you so much. I really appreciate 
your being here.
    Next we are going to hear from Mr. Oscar Neal, chair of the 
Watts-Willowbrook Chamber of Commerce. Thank you again for 
coming. The Watts-Willowbrook Chamber of Commerce is important 
to us. Ms. Edna Aliewine is an old friend of mine. I can't tell 
you how far back we go, because then you would know how old we 
really are. I appreciate the time and effort that has been put 
in by the Watts-Willowbrook Chamber of Commerce. You never left 
this community. You stayed with us and I do appreciate it. Mr. 
Neal, we would like to hear from you.

 STATEMENT OF OSCAR NEAL, CHAIR, WATTS-WILLOWBROOK CHAMBER OF 
                            COMMERCE

    Mr. Neal. Thank you, Congresswoman Waters. My name is Oscar 
Neal. I am the owner of Jordan's Cafe, and have been a resident 
of Watts since 1944, a graduate of Jordan High School, and also 
the chairperson of the Watts-Willowbrook Chamber of Commerce. I 
became aware of rumors at the beginning of the Dana Strand 
which you heard kind of at the top of the meeting here. This 
was approximately the year 2001/2002. In turn, they tore Dana 
Strand completely down to the ground.
    At this particular time, there were quite a few rumors that 
the City of Los Angeles was trying to get out of the landlord 
tenant business and in turn of the displacement of the 
residency was that they were displaced by choice throughout the 
United States. Some went to Texas and some went to other 
locations.
    If the Jordan Down plan is a mirror image of the Dana 
Strand plan, I would say that basically you are looking at 
displacement and you are also looking at an impact on 
businesses, an impact on the schools, and also an impact on the 
churches because there will be a certain amount of vacancies 
that will happen.
    At that particular time, for some reason I don't know, and 
I thought that basically the other public housing units 
throughout the Los Angeles area was informed as to what was 
going on in Wilmington in reference to Dana Strand. The Dana 
Strand project I am sure one of the representatives that was up 
here earlier would be able to give you the information but I 
don't know if it has been completed. Completed means whether 
the tenants have been able to move in.
    I think we heard there were something like 700 tenants and 
after the redevelopment there were something like 400. Again, 
that was the beginning of the rumors that I heard.
    As far as the redevelopment, one of the things we have to 
realize in the Los Angeles area, vacant space in Los Angeles is 
very, very competitive because on one side you have the school 
system that I think is trying to build 14 new schools and on 
this side you have redevelopment of public housing in Los 
Angeles.
    The interesting thing that I heard earlier was that if we 
have 200 vacancies in Jordan Downs, the displacement of people 
from Nickerson--I mean from Jordan Downs. If we have 200 
vacancies in Nickerson, could we kind of compromise and can we 
fix it up? I don't know. That is just a question.
    The other thing that happens is that housing in the Watts 
area 1,800 square feet is selling for near $400,000, which 
means that you are talking about a household income of 
$120,000. I think along with redevelopment means upward 
mobility which means we are talking about people who should be 
making in excess of $20 an hour. I think if we are looking at 
that, the timeline of completion if we started today, I am sure 
we are looking at 7 years before the project would be 
completed.
    We are talking about a vacuum of 6 years. In turn, there 
should be a certain amount of training that is done. Then there 
should also be looked into a forgiving system. A forgiving 
system might be one where we know that we have a substance 
problem in the United States. It might be that there is a job 
that comes available and I didn't pass the test but I should be 
allowed to go back 3 months or 6 months to reapply for the job 
and see if I quality. I think with the redevelopment you are 
looking at many different aspects that impact the community.
    Certainly once the redevelopment process starts, if it 
happens, we would have more spendable income in the area. We 
would have a certain degree of pride of ownership. Again, my 
statement to the committee is one basically that the rumors 
started basically back in 2001 as far as I am concerned.
    Again, I would like to thank the committee for allowing me 
to have a few minutes to speak.
    [The prepared statement of Mr. Neal can be found on page 55 
of the appendix.]
    Chairwoman Waters. Thank you so very much, Mr. Neal. How 
old is the restaurant?
    Mr. Neal. We opened in 1942.
    Chairwoman Waters. Wow.
    Mr. Neal. We have been around a long time. I graduated from 
Jordan High School in 1955 and I went to my 50th high school 
reunion in 2005.
    Chairwoman Waters. Wow. That is what you call commitment. 
Thank you very much.
    Chairwoman Waters. I will take a few minutes to ask a few 
questions of our witnesses who appeared before us today.
    Mr. Henderson, would you take a moment and describe for me 
the kind of fear and uncertainty that you and others have 
alluded to because of the rumors. What is it people say? How do 
they express their concern?
    Mr. Henderson. Well, basically, Congresswoman, the fear and 
uncertainty comes from actually not knowing. The thing is when 
they toss around ``redevelopment'' so loosely, redevelopment 
can be anything. The first thing that the average person thinks 
about, though, is basically tearing down the bricks. Like I 
said, it can be anything from painting the inside and outside 
dwelling to adding a fishing pond. That is what redevelopment 
means. It has a lot of commas up under it.
    I don't want anybody to actually get scared, but they have 
to be aware of what is really going on because eventually, if 
the land hasn't been acquired, it will be. We just need to be 
prepared as residents to basically step up. When I say step up, 
I mean on a whole other level, a financial level. A lot of 
people's credit is not good so the fear and uncertainty come 
from actually just living.
    Some people made bad decisions in their lives that they are 
trying to basically recant for right now so that is what I mean 
by the whole uncertainty of it. The average person feels that 
they might get relocated to the valley, you know. That is not 
cool. My thing is I have been around for 20-plus years here. I 
don't know if that is a blessing or a curse.
    I would call it a blessing, you know, thanks to my mom and 
my grandmother and all that. Basically I grew up looking at 
everything that has happened from the respect level of the 
youngsters to the disrespect level of the youngsters today. It 
is all based on if we have our stuff really together then we 
should be able to elevate.
    Chairwoman Waters. Have you thought about the best way to 
disseminate information and keep people involved with the facts 
so that the rumors don't create all of the fear and 
uncertainty? Have you thought about what the housing authority 
can do to create the kind of communication with the residents 
that will keep them updated with facts?
    Mr. Henderson. Well, the first thing that I can actually 
say about that is as the RMC, we need to establish a Web site. 
Everything is becoming digital now. Everybody is using 
computers but through the old way how we normally do we 
normally flyer the neighborhood. For the most part we do have a 
positive turnout but we have to recognize that some of our 
youth and some of the parents of the youth are actually working 
so they can't attend certain meetings. Do you know what I am 
saying?
    So the Web site is the first thing that I can think about 
that would actually be updated with the truth. I don't know who 
is going to establish it. I would head that but I need to find 
out how to go about basically maintaining it and getting the 
truth from these top people because as a board like basically 
we are on the totem pole. We are on the bottom of it as far as 
with politics. I feel that with the proper education and all 
that, we can be vastly brought up to standard so we as a board, 
me, Sandra, Claudia Moore, Michael Augustine, we can actually 
get it out to the people fast because it is a necessity to know 
and not have people running around here like chickens with 
their heads cut off, per se.
    Chairwoman Waters. Mr. Broomfield, thus far we have had Mr. 
Montiel here, and I have tried to ask him as many direct 
questions as I could think of to deal with the rumors. Do you 
think that some of the rumors have been cleared up with his 
testimony today?
    Mr. Broomfield. Yes, ma'am. I think all the rumors have 
been cleared up. We know there is no project on the table at 
this time.
    Chairwoman Waters. I am sorry. Somebody is asking you to 
speak up.
    Mr. Broomfield. Yes, ma'am. Things have been cleared up for 
me today. A lot of the questions I had were about how they were 
going to proceed on the project. I know now there is no 
project, and I know there is no funding for a project, so all 
the rumors that have been spread around have just been rumors.
    Chairwoman Waters. That is right. Mr. Broomfield, I just 
had some advice about how to communicate better. The Web site 
which I think is absolutely good thinking based on the 
dependence on new technology and the fact that people are 
involved in that. Do you have any other thoughts about how 
there could be better communication with the housing authority 
so that rumors could be dealt with quickly and facts could be 
disseminated quickly so that people don't go around in fear 
that they are going to get shipped out of here to some other 
county and lose their ability to stay in their units. Do you 
have any thoughts about what else could be done?
    Mr. Broomfield. Yes, ma'am. I do. Myself and my co-chair, 
Betty Day, we are forming a Web site. Not only are we forming a 
Web site, but we have a newsletter called the ``Watts Voice.'' 
We are sending information out to the community each and every 
month. We are in the process of building our Web site now as 
this gentleman next to me, Mr. Henderson, stated, and that is 
what it is going to take to get the word out. We are not going 
to be able to stop all the rumors but attend more meetings in 
the community, more organizations in the community come 
together as one so we can go back to our people and tell them 
this is true and this is not.
    Chairwoman Waters. Thank you. Is Ms. Betty Day in the 
audience? Would you please stand up? We want to say thank you 
for your service and your work also. I think the Web site is a 
good idea. Knowing what I know about you, even if you had no 
Web site, you would still get the word out if you can. I know 
you, Betty Day. Okay.
    All right. Let me ask Mr. Jones, has this hearing been 
helpful in answering some of the questions that you have heard 
out in the community about what is going on? Has this helped at 
all?
    Mr. Jones. Yes. It cleared up a lot of rumors. This is much 
needed by the people, as far as myself, too. The answers to the 
questions were right on point. By the time the day is over 
with, there will be more rumors about the facts.
    Chairwoman Waters. Rumors about the facts?
    Mr. Jones. Rumors about the facts.
    Chairwoman Waters. Do you have any thoughts about how we 
can create better communication to keep the rumors at bay and 
get the facts out? What else can we do? What else can the 
housing authority do?
    Mr. Jones. I mean, set up a committee as far as possibly 
have some meetings for updates on the redevelopment process.
    Chairwoman Waters. Mr. Henderson, you have a number of 
officers that are in the corporation, the resident management 
corporation. Are they in the room today?
    Mr. Henderson. Yes. We have my president, Cassandra Savage. 
She is here.
    Chairwoman Waters. Hello. Good to see you. Will all of the 
officers of the Resident Management Corporation please stand. 
Who else is in the room?
    Mr. Henderson. Ms. Moore. I don't know if Claudia Moore is 
here, but if she is not here, she is definitely here in spirit, 
because she has been down so we do want to give a hand clap for 
her, too.
    Chairwoman Waters. There is Claudia. Stand up Claudia 
Moore. That is one of my old friends. She started out with us 
at Project Build. How many years ago, Claudia?
    Ms. Moore. It has been a long time.
     Chairwoman Waters. Go ahead and tell them. You don't want 
them to know how old you are--35 years ago we started. It is 
good to see you. Thank you.
    All right. Is it possible that you could think about the 
corporation in conjunction with some others maybe in the 
community setting up a regular communication about this issue 
in addition to all the other issues you talk about but simply 
an ongoing update on the development question. Is that 
possible?
    Mr. Henderson. Yes, everything is possible. The thing is we 
have to have information to do it. As long as that happens, as 
long as that is getting basically handed to us, then us as a 
community and as a board we are obligated to give it out to the 
public and that is where everybody in the neighborhood who 
don't really pay attention to politics--it is a way of speaking 
on both levels. Basically politicking is this right here but we 
still have the brothers and sisters who don't pay any attention 
to politics, so we still have a way to communicate with them, 
too.
    Also, Chairwoman Waters, I want to mention one more member 
on my board, Clara Niece Moore. She has been sick. That is what 
I was talking about. She has been sick and down so I would just 
like to say get well soon and we will see you, you know.
    Chairwoman Waters. Absolutely. Our thoughts go out to her. 
We want her to get well and we appreciate her volunteering and 
her help in helping to make Jordan Downs the best we can 
possibly make it.
    Mr. Neal, do you have any other ideas? You see people all 
the time. They are in and out and the restaurant is where 
conversation goes on. Do you have any thoughts about how we can 
better communicate?
    Mr. Neal. I think that inclusive of all of the public 
housing, I think if all of them communicate, we can put to rest 
not only rumors at Jordan Downs but rumors there are only 200 
vacancies. You know, that is a lot of questioning right there. 
How can you have 200 vacancies? That is what started it. When 
people start seeing things being boarded up, they think the 
City is planning on making some drastic moves and there are a 
lot of boarded up places in Jordan Downs. I think the thing 
about it is networking and communication between all areas, all 
organizations that represent the Watts-Willowbrook area. I 
think if they communicate a little bit, we can dispel a lot of 
rumors.
    Chairwoman Waters. Thank you very much. I would like to 
thank this panel for coming out today and for sharing with us 
information that I think is very helpful not only to the 
housing authority but for those of us who have the 
responsibility for public policy in Washington, D.C.
    I am going to deviate a bit from the normal way that these 
kinds of hearings are done in Washington, and I am going to ask 
some questions of the audience. I have to also put something in 
the record. We note that some Members who are not here today, 
Members of Congress, may have additional questions for this 
panel which they may wish to submit in writing. Without 
objection, the hearing record will remain open for 30 days for 
Members to submit written questions to these witnesses and to 
place their responses in the record.
    Before I dismiss the panel, I want to address the audience. 
I would like to see the hands of people who actually live in 
Jordan Downs. Great response and great participation, and I am 
so very pleased that you are here.
    I would also like to ask the audience by way of show of 
hands how many people have been frightened by the rumors that 
you have heard. I am going to ask some general questions of the 
entire audience in the way that I just asked those two. Do you 
believe there is room for development at Jordan Downs? Do you 
think this is something that may be needed that could possibly 
help Jordan Downs? What do you think?
    How many people think that based on what you heard, that if 
the land was acquired, the new buildings went up, the people 
from the old buildings moved into the new buildings on a 
phased-in basis, and that it is one-for-one replacement and 
everybody who lives in Jordan Downs would have an opportunity 
to live in the new building, how many people think that is a 
worthwhile project?
    How many people trust that the housing authority can really 
get that done? How many people would be willing to be involved 
in helping to make decisions about any proposed development 
such as whether or not there would be more density, as you 
heard alluded to, how much green space there should be, whether 
or not there should be a 3- or 4-story building, whether or 
not, whether or not. How many people believe that it is 
important to be involved in that kind of planning and would be 
willing to do it?
    How many people believe that you can make the final 
decision about any development? Not simply the size of the 
development, the architecture design, the green space, but you 
can decide whether or not there is any development or not? How 
many people believe that?
    How many people know and understand that it is your right 
to decide whether or not there is a kind of development that 
has been talked about? How many people would be willing to get 
the information, look at it, and say, ``I don't like it. I 
don't think it works.'' Or to say, ``I kind of like this. I 
think it has possibilities. I think it works and I want to work 
with it.'' How many people are willing to go along and either 
support or not support? How many people?
    How many people feel just a little bit better today because 
of this hearing? How many people know and understand that 
unless you are involved, and unless you make this decision, 
Maxine Waters doesn't intend that they get a dime from 
Washington or anyplace else? How many people can understand 
that?
    Okay. What we are going to do is, we are going to ask Mr. 
Montiel to come back up. Thank you for being here, Mr. Montiel. 
Give him a big round of applause. Now, I'm going to ask Mr. 
Montiel to do something that I think is very, very easy to do. 
I would like you to get with our panelists who have 
participated here today and the management corporation, which 
includes Mr. Pope, Mr. Neal, etc., CUSH and Mr. Jones, etc.--
everybody--Mr. Broomfield. Come up with a way by which you can 
have an ongoing meeting or meetings to keep them informed and 
updated on every step that has been thought about. Can you do 
that? Would you be willing to participate in some kind of 
ongoing interface with Mr. Montiel? All right.
    Mr. Montiel, we know that as in any organization you have a 
lot of personnel and they are assigned to do a lot of things 
but I am going to ask you to do me a favor. For the first three 
meetings, I want you there. Can you do that?
    Mr. Montiel. I can do that.
    Chairwoman Waters. All right. Okay. Then after those three, 
if the people you are meeting with feel as if you don't have to 
be there, that you can send someone, would you allow them to 
decide that?
    Mr. Montiel. Absolutely.
    Chairwoman Waters. All right. Do you think we can do this? 
All right. I forgot to mention before we go that a young 
councilman from Compton is so interested in what is happening 
not only here at Jordan but with all of the public housing 
developments throughout the City that he came today. Please 
welcome Councilman Isadore Hall.
    This hearing has drawn a lot of attention. Just as you saw 
Mr. Parks here, we have another candidate who is running for 
the State Senate, who was in one of those caucuses this 
morning, and the last thing he said to me when I left is, ``I 
am coming too.'' He is in the back of the room, Mr. Roderick 
Wright.
    Now, I like the idea that elected officials are showing up 
because we must all be held accountable. We must all be held 
accountable. We know that sometimes life is a little bit 
difficult and it is not what most of us would like to have. 
Sometimes we have to roll with the punches. We have to live 
with some of the cards that are dealt to us in life. Many of us 
believe that with self-determination, with the belief in self, 
with the love for family and community, we can do better. We 
can do better. I believe that and I know a lot of you believe 
that. I know that sometimes you feel as if you have been 
abandoned. I know that sometimes you feel as if you are being 
harassed.
    I know that you feel that somehow the sun doesn't shine 
down here at Jordan Downs but I want you to know that even 
though you don't see everybody all the time, that we are 
fighting on public policy to make sure that the Federal 
Government understands that no matter what happens there must 
always be public housing units available for people in this 
country. We do everything that we can and we are working on the 
capital question that was alluded to today by Mr. Montiel to 
have more money for renovations and repairs to make public 
housing units more livable.
    I wish that I had an answer for the crime that too many of 
us are fed up with and sick of. We know as long as we have a 
lot of young people who feel as if they have been dropped off 
of America's agenda, that they have nowhere to turn, that they 
have no jobs and nobody cares and they are anonymous and they 
can do what they want to do, we are going to have problems.
    All of the elected officials have to work harder for job 
creation, for job training to open up opportunities. And you 
have to tell them if they are not in school, they better get 
over to the Maxine Waters Employment Preparation Center and 
learn something. We have some people we are going to meet with 
today to try and see if we can't revitalize the fiber optics 
training that pays so well if you get that kind of training. We 
want folks to try, just try.
    The harder you try, the harder people around you will try. 
We want you to know that you have a right to be assisted by 
your government and some of us believe very deeply in it. We 
have a lot of successes. There are people in this room who 
started with Project Bill many years ago who own their own 
homes. Greg Brown, where are you? Where is Greg Brown? Greg? 
There is Greg. Greg started with Project Bill. He is a 
homeowner. He is one of the activists of the community looking 
out for our young people, working in several housing 
developments. Claudia Moore and others.
    We have had successes and we have had losses. Every time I 
come to Jordan Downs my heart just falls because I think of 
High T and Ray Ray and the young people that we worked with who 
didn't make it. But, you know, because of the losses, that 
means we have to try to do better so that we prevent more 
losses. I want you to know that I am proud of you just for 
being here today because you know what? A lot of people said 
that nobody would come, but look at this room; it is full.
    Your presence today sends a powerful message. I want you to 
know that I and others are going to stay in step and in tune 
and at every meeting that Mr. Montiel has with those of you who 
are going to do the follow-up to keep up with the information 
about the development, I am going to have a staff person there, 
too. I may be in Washington, but we will have a staff person 
there, too.
    With that, guess what? Our Congresswomen from the adjacent 
district just walked in the room. She, too, was at the caucus 
this morning where she received support for the endorsement of 
the Democratic Party. She was recently elected to the 37th 
Congressional District. As you know, that part of the District 
adjacent to this one was represented by Congresswoman Juanita 
McDonald, who passed away. Ms. Richardson was in the State 
legislature. She quickly moved and stepped up to the plate, and 
hit the ground running. She is doing a great job.
    What I love about her presence on Capitol Hill is that she 
does not mind me crossing over the lines to work not only with 
Jordan but with Nickerson and Imperial Court and with Gonzaque. 
I don't mind her crossing over to work with Jordan and Avalon 
Gardens. We are working together for all of our housing 
developments. Welcome, Ms. Richardson. The microphone is yours.
    Ms. Richardson. Thank you, Congresswoman Waters. First of 
all, let me say that I apologize for not being here earlier. As 
she said, I was at a meeting and my part just finished. I just 
came here to say a couple of things. First, you need to know 
how blessed you are. Not only do you have Congresswoman Waters 
who represents this area, but she is actually the chairwoman of 
the subcommittee. Why that is important to you is by her being 
chairwoman, any and everything that we can possibly get to 
enhance this community, she is in the position to make that 
happen, so let us give her a round of applause.
    I just want to say that I have been fortunate, as you have 
been, to learn from the Congresswoman. What happens in these 
developments here are very important to us. We need to make 
sure that as funds now become available, as we hopefully have a 
new Administration coming forward, that we need to make sure 
that all of you who have stuck in here with us at Jordan Downs, 
that the enhancements and the improvements that have been long 
overdue do, in fact, happen.
    You just need to know, as she said, she may be in 
Washington, but she has a very close and watchful eye on what 
is happening here. She fought that with the new legislation 
that was passed that there would be community participation, 
which is what you are seeing right now. She fought to ensure 
that as we make improvements, there will still be homes and 
places for people to go. Those are all things that she made 
sure happened.
    In other places across the country, it was very common that 
if improvements were done, people would be sent away. I know 
rumors in my area said that old people are going to Palmdale or 
they are going to Antelope Valley. Your Congresswoman has made 
sure that enhancements are done in a phased way so that way our 
families can still stay together. I am just here to say that I 
am working with her. I have her back. I have enjoyed learning 
from her and we are going to make sure that you are well taken 
care of. Thank you very much.
    Chairwoman Waters. Thank you very much. I want you to know 
that when I told Mr. Montiel that all I could produce for today 
was water, he said, ``Don't worry. I have the food.'' We have 
food for everybody before you leave here today.
    I would like to thank all of the staff people who are here 
and I would like them to come down front. Would all the staff 
people come down front. Okay. Is Mr. Mikael Moore in the room? 
I would like Mr. Mikael Moore to step out here. This is a young 
man who graduated from Morehouse and is working on the Hill as 
my chief of staff. He is doing a fabulous job on Capitol Hill. 
Give him a big round of applause.
    I also want you to know with the new committee assignment 
that I have, I was able to get new staff. It is very hard to 
find experts dealing with everything from CDBG to Section 108 
loan guarantee programs or to all of the activities of HUD 
including HOPE VI, all of that. I found a young woman who is 
one of the smartest young consultants I have ever met in life, 
and I want you to welcome Charla Ouertatani, from Washington, 
D.C.
    We also have with us another young lady whom I think may be 
in this part of Los Angeles for the first time, who works on 
the committee, Ms. Gisele Roget. Thank you very much for being 
here.
    Right here in Los Angeles, working out of the district 
office, we have Ms. Blanca Jimenez. Blanca, please raise your 
hand.
    Where is Ms. April Lawrence? Step right up, Ms. April 
Lawrence. Mr. Edgar Saenz. You heard some reference to Playa 
Vista. We have a huge district. Most people don't know the 
boundaries of our districts. We include not only parts of South 
Central and Watts. We share Watts, the two of us.
    I have parts of South Central Los Angeles. I have the 
cities of Inglewood, Hawthorne, Gardena, Lawndale, and I have 
all of Playa Vista and all of the airport so we cover quite a 
bit of territory in this district.
    Also we have Anjelica. Would you please step out there? 
Marty Moore, please step out. Michelle, please step out.
    I want you to know that these young people, or these people 
young and not so young, most of them are pretty young, are 
hired by you. You are the taxpayers. You are the folks who 
caused them to be able to have their job. You may call our 
office to ask us questions about anything. We do constituent 
complaints. We help people work out Social Security problems. 
We do mostly Federal work. A lot of times people will call us 
about city council work or State legislature work and we will 
tell you where who to contact.
    On the Federal level, we are dealing with people who are 
incarcerated and people who are trying to get people moved 
closer to them. We are dealing with Social Security problems. 
We are dealing with all of those problems that are under our 
Federal jurisdiction. We will be working on the No Child Left 
Behind legislation that a lot of you are concerned about, so 
feel free to call us and to call Laura Richardson. We will do 
everything that we can to truly be your representatives in 
Washington. Thank you for being here today. You make me proud. 
This meeting is adjourned.
    [Whereupon, at 1:00 p.m., the hearing was adjourned.]

                            A P P E N D I X



                             March 15, 2008


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                 <all>





</pre></body></html>
